      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




January 3, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Resident Data Reported in the Intern and Resident Information System
               for Medicare Cost Reports Submitted to Highmark Medicare Services, Inc.
               (A-02-09-01019)


Attached, for your information, is an advance copy of our final report on resident data reported in
the Intern and Resident Information System for Medicare cost reports submitted to Highmark
Medicare Services, Inc. (Highmark). We will issue this report to Highmark within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01019.


Attachment
                                                                          Office of Inspector General
      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Audit Services


                                                                          Region II
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
January 5, 2012

Report Number: A-02-09-01019

Mr. Patrick Kiley
President
Highmark Medicare Services, Inc.
1800 Center Street
P.O. Box 890089
Camp Hill, PA 17089

Dear Mr. Kiley:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Resident Data Reported in the Intern and Resident
Information System for Medicare Cost Reports Submitted to Highmark Medicare Services, Inc.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Brenda Tierney, Audit Manager, at (518) 437-9390, extension 222, or through email at
Brenda.Tierney@oig.hhs.gov. Please refer to report number A-02-09-01019 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Patrick Kiley


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF RESIDENT DATA
     REPORTED IN THE INTERN
AND RESIDENT INFORMATION SYSTEM
   FOR MEDICARE COST REPORTS
SUBMITTED TO HIGHMARK MEDICARE
         SERVICES, INC.




                        Daniel R. Levinson
                         Inspector General

                          January 2012
                          A-02-09-01019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare’s share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. (In this report, “resident” includes hospital interns.) Indirect GME payments cover
the additional operating costs that teaching hospitals incur in treating inpatients, such as the costs
associated with using more intensive treatments, treating sicker patients, using a costlier staff
mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of time those
residents spend working at the hospital. Pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and
413.78(b), no resident may be counted as more than one FTE.

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
training programs at teaching hospitals. According to 67 Fed. Reg. 48189 (July 23, 2002), the
primary purpose of the IRIS is to ensure that no resident is counted by the Medicare program as
more than one FTE employee in the calculation of payments for the costs of direct and indirect
GME.

Highmark Medicare Services, Inc. (Highmark) is a Medicare Administrative Contractor (MAC)
under contract with CMS to administer the Medicare Part A (hospital insurance) program.
Highmark administers the program for MAC Jurisdiction 12, which consists of four States—
Pennsylvania, Maryland, New Jersey, and Delaware—and the District of Columbia. For fiscal
year (FY) ended in 2006, 133 hospitals in MAC Jurisdiction 12 collected and reported
information to the IRIS on residents. In FY ended 2007, the figure was 132 hospitals.

OBJECTIVE

The objective of our review was to determine whether hospitals in MAC Jurisdiction 12 claimed
Medicare GME reimbursement for residents in accordance with Federal requirements.

SUMMARY OF FINDING

Hospitals in MAC Jurisdiction 12 did not always claim Medicare GME reimbursement for
residents in accordance with Federal requirements. Specifically, 66 hospitals overstated direct
and/or indirect FTE counts on cost reports covering FYs 2006 and 2007. As a result, 50 of those
66 hospitals received excess Medicare GME reimbursement totaling $1,915,825 for residents
who were claimed by more than 1 hospital for the same period and counted in the IRIS as more

                                                  i
than 1 FTE. For the remaining 16 hospitals, the FTE overstatements did not have an effect on
the hospitals’ Medicare GME reimbursement.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Highmark to review IRIS data that hospitals in MAC Jurisdiction 12 submitted
to detect whether a resident had overlapping rotational assignments at more than one hospital.
As a result, Highmark did not have procedures to adequately ensure that no resident was counted
as more than one FTE in the calculation of Medicare GME payments.

RECOMMENDATIONS

We recommend that Highmark:

   •   recover $1,915,825 in excess Medicare GME reimbursement paid to 50 hospitals in MAC
       Jurisdiction 12,

   •   adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2006 and 2007 for each of the hospitals that did not always claim Medicare GME
       reimbursement in accordance with Federal requirements,

   •   consider developing procedures to ensure that no resident is counted as more than one
       FTE in the calculation of Medicare GME payments, and

   •   consider identifying and recovering any additional overpayments made to hospitals in
       MAC Jurisdiction 12 for residents whose FTE count exceeded one on Medicare cost
       reports submitted after FY 2007.

HIGHMARK MEDICARE SERVICES, INC., COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Highmark generally concurred with our first and second
recommendations, partially concurred with our fourth recommendation, and disagreed with our
third recommendation. Specifically, Highmark agreed with the FTE overstatements and excess
Medicare GME reimbursement identified. However, Highmark agreed to adjust only the FTE
counts on 117 cost reports (out of a total of 152 cost reports with errors) and recover $1,814,426
in excess Medicare GME reimbursement. Highmark stated that it will not reopen 35 settled cost
reports (with excess reimbursement totaling $101,399) because the overpayment amounts do not
meet Highmark’s materiality thresholds for reopening settled cost reports.

Highmark stated that it partially concurred with our fourth recommendation. Highmark
indicated that it would continue to follow instructions contained in the MAC Jurisdiction 12
statement of work and make FTE adjustments based on the review of rotation schedules prepared
by the hospitals. However, Highmark will not change its procedures or expand review efforts
unless CMS issues a contract modification and/or technical direction letter. Similarly, Highmark
disagreed with our third recommendation because there is no requirement for reviewing IRIS


                                                ii
data in the MAC Jurisdiction 12 statement of work and CMS provides no funding to perform
additional reviews of FTEs “outside the contracted desk review and audit programs.”

After reviewing Highmark’s comments, we maintain that our findings and recommendations are
valid. We have revised our report and first recommendation to reflect that, of the 66 hospitals
with overstated FTEs, the overstatements for 50 of those hospitals had an effect on Medicare
GME reimbursement. Highmark’s comments are included in their entirety as the Appendix.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION.............................................................................................................1

     BACKGROUND ..........................................................................................................1
        Medicare Payments for Graduate Medical Education .........................................1
        Intern and Resident Information System .............................................................1
        Highmark Medicare Services, Inc........................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
         Objective ..............................................................................................................2
         Scope ....................................................................................................................2
         Methodology ........................................................................................................3

FINDING AND RECOMMENDATIONS ......................................................................4

     RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE ....................4

     RECOMMENDATIONS ..............................................................................................5

     HIGHMARK MEDICARE SERVICES, INC., COMMENTS ....................................5

     OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................6

APPENDIX

     HIGHMARK MEDICARE SERVICES, INC., COMMENTS




                                                                      iv
                                                   INTRODUCTION

BACKGROUND

Medicare Payments for Graduate Medical Education

Since its inception in 1965, the Medicare program has shared in the costs of educational
activities incurred by participating hospitals. The Centers for Medicare & Medicaid Services
(CMS), which administers the Medicare program, makes two types of payments to teaching
hospitals to support graduate medical education (GME) programs for physicians and other
practitioners. Direct GME payments are Medicare’s share of the direct costs of training interns
and residents, such as salaries and fringe benefits of residents and faculty and hospital overhead
expenses. 1 Indirect GME payments cover the additional operating costs that teaching hospitals
incur in treating inpatients, such as the costs associated with using more intensive treatments,
treating sicker patients, using a costlier staff mix, and ordering more tests.

A hospital claims reimbursement for both direct and indirect GME, in part, based on the number
of full-time equivalent (FTE) residents that the hospital trains and the portion of time those
residents spend working at the hospital. Pursuant to 42 CFR § 412.105(f)(1)(iii)(A), FTE status
is based on the total time necessary to fill a residency slot. The regulation states: “If a resident
is assigned to more than one hospital, the resident counts as a partial [FTE] based on the
proportion of time worked in any areas of the hospital listed in paragraph (f)(1)(ii) of this section
to the total time worked by the resident. A hospital cannot claim the time spent by residents
training at another hospital.” 2

For payment purposes, the total number of FTE residents is the 3-year “rolling average” of the
hospital’s actual FTE count for the current year and the preceding two cost-reporting periods
(42 CFR §§ 412.105(f) and 413.79(d)(3)). Pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and
413.78(b), no individual may be counted as more than one FTE. Each time a hospital claims
GME reimbursement for a resident it must provide CMS with information on the resident’s
program, year of residency, dates and locations of training (including training at other hospitals),
and percentage of time working at those locations (42 CFR §§ 412.105(f) and 413.75(d)).

For fiscal year (FY) 2009 (the most current data available), teaching hospitals nationwide
claimed GME reimbursement totaling $3 billion for direct GME and $6.5 billion for indirect
GME.

Intern and Resident Information System

CMS makes available the Intern and Resident Information System (IRIS), a software application
that hospitals use to collect and report information on residents working in approved residency
programs at teaching hospitals. Hospitals receiving direct and/or indirect GME payments must

1
    In this report, “resident” includes hospital interns.
2
    When referring to the time a resident spends at a hospital, the terms “working” and “training” are interchangeable.


                                                            1
submit, with each annual Medicare cost report, IRIS data files that contain information on their
residents, including, but not limited to, the dates of each resident’s rotational assignment.
According to 67 Fed. Reg. 48189 (July 23, 2002), the primary purpose of the IRIS is to ensure
that no resident is counted by the Medicare program as more than one FTE employee in the
calculation of payments for the costs of direct and indirect GME.

Highmark Medicare Services, Inc.

Highmark Medicare Services, Inc. (Highmark) is a Medicare Administrative Contractor (MAC) 3
under contract with CMS to administer the Medicare Part A (hospital insurance) program.
Highmark administers the program for MAC Jurisdiction 12, which consists of four States—
Pennsylvania, Maryland, New Jersey, and Delaware—and the District of Columbia. 4 For FY
ended in 2006, 133 hospitals in MAC Jurisdiction 12 collected and reported information to the
IRIS on residents. In FY ended in 2007, the figure was 132 hospitals.

For FYs 2006 and 2007, hospitals in MAC Jurisdiction 12 claimed GME reimbursement totaling
$650 million for direct GME and $1.5 billion for indirect GME.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether hospitals in MAC Jurisdiction 12 claimed
Medicare GME reimbursement for residents in accordance with Federal requirements.

Scope

We reviewed IRIS data that hospitals in MAC Jurisdiction 12 submitted to support resident
training costs claimed on annual Medicare cost reports covering FYs 2006 and 2007. This
review is part of a nationwide series of Office of Inspector General reviews of Medicare GME
payments to hospitals for residents counted as more than one FTE.

We did not assess Highmark’s overall internal control structure. Rather, we limited our review
of internal controls to those applicable to our audit, which did not require an understanding of all
internal controls over the Medicare program.




3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer to MACs, between October 2005 and October 2011, the functions of fiscal intermediaries
and carriers. For each MAC jurisdiction, the legal fiscal intermediaries and carriers continue to service the providers
in those States until the MAC assumes responsibility for the workload.
4
  CMS awarded the MAC contract for Jurisdiction 12 to Highmark on October 24, 2007. However, because of a
protest of the award, the transition was delayed. In December 2008, Highmark assumed full responsibility for the
workload in Jurisdiction 12. Therefore, Highmark is responsible for collecting any overpayments and resolving the
issues related to this audit.

                                                          2
Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and guidance;

    •    held discussions with Highmark officials to gain an understanding of Highmark’s
         procedures for reviewing IRIS data submitted by hospitals in MAC Jurisdiction 12;

    •    obtained FYs 2006 and 2007 IRIS data from Highmark for all hospitals in MAC
         Jurisdiction 12;

    •    analyzed the IRIS data to identify residents claimed by more than one hospital for the
         same rotational assignment (e.g., weekly rotation schedule) and for whom the total FTE
         count exceeded one; 5

    •    obtained and reviewed rotation schedules and other documentation from each hospital in
         MAC Jurisdiction 12 for each resident for whom the total FTE count exceeded one to
         determine which hospital should have claimed Medicare GME reimbursement for the
         resident during an overlapping period;

    •    adjusted the claimable direct and/or indirect FTE counts for hospitals that should not
         have claimed GME reimbursement for residents during an overlapping period or
         provided conflicting documentation that did not resolve the overlapping rotation dates; 6
         and

    •    determined the net dollar effect of the adjustments to the direct and indirect FTE counts
         by recalculating each hospital’s Medicare cost report(s). 7

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




5
 The FTE count for a resident exceeded one FTE when the total direct GME percentage and/or the total indirect
GME percentage for overlapping rotational assignments, as reported in the IRIS, was greater than 100 percent.
6
  According to Highmark guidance, the resolution of overlaps or duplicate rotations is the responsibility of each
individual hospital. When hospitals cannot reach an agreement on which hospital should claim a resident, no
hospital can count the FTE or claim reimbursement for the resident.
7
 We used Worksheet E-3, Part IV, to recalculate direct GME reimbursement and Worksheet E, Part A, for indirect
GME reimbursement.

                                                          3
                               FINDING AND RECOMMENDATIONS

RESIDENT FULL-TIME EQUIVALENT COUNT EXCEEDED ONE

Pursuant to 42 CFR § 412.105(f)(1)(iii)(A), if a resident is assigned to more than one hospital,
the resident counts as a partial FTE based on the proportion of time worked in the hospital to the
total time worked by the resident. A hospital cannot claim the time spent by residents training at
another hospital. In addition, pursuant to 42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b), no
individual may be counted as more than one FTE in the calculation of Medicare GME payments.

For Medicare cost reports covering FYs 2006 and 2007, 66 hospitals 8 in MAC Jurisdiction 12
claimed GME reimbursement for residents who were claimed by more than 1 hospital for the
same period and whose total FTE count exceeded 1. Specifically, those 66 hospitals overstated
FTE counts for direct GME reimbursement by a total of 32.67 FTEs for FY 2006 and 28.36
FTEs for FY 2007. In addition, the 66 hospitals overstated FTE counts for indirect GME
reimbursement by a total of 37.38 FTEs for FY 2006 and 29.43 FTEs for FY 2007.

Fifty of the sixty-six hospitals with overstated FTEs in MAC Jurisdiction 12 received excess
Medicare GME reimbursement totaling $1,915,825. Specifically, we determined that these
hospitals overstated, on Medicare cost reports for 2006 through 2009, 9 FTE counts for FYs 2006
and 2007. We determined this by using CMS’s 3-year rolling average formula. The 50
hospitals overstated:

     •   direct GME reimbursement by $725,318 and

     •   indirect GME reimbursement by $1,190,507.

For the remaining 16 hospitals, the overstated FTEs did not have a dollar effect on Medicare
GME reimbursement because 14 hospitals were still over their FTE caps 10 after adjusting the
claimable direct and/or indirect FTE counts and the FTE adjustments for the remaining 2
hospitals were equal to 0 when rounded to the nearest hundredth.

The overstated FTE counts and excess reimbursement occurred because there was no Federal
requirement for Highmark to review IRIS data that hospitals in MAC Jurisdiction 12 submitted
to detect whether a resident had overlapping rotational assignments at more than one hospital.
As a result, Highmark did not have procedures to adequately ensure that no resident was counted
as more than one FTE in the calculation of Medicare GME payments.



8
 For FYs 2006 and 2007, the 66 hospitals claimed GME reimbursement totaling $486 million for direct GME and
$1.1 billion for indirect GME.
9
 The 2006 FTE overstatements affected GME costs claimed on FYs 2007 and 2008 Medicare cost reports. The
FY 2007 FTE overstatements affected GME costs claimed on FYs 2008 and 2009 Medicare cost reports.
10
 Section 1886 of the Social Security Act established caps on the number of residents that a hospital may claim for
Medicare direct and indirect GME reimbursement.

                                                         4
RECOMMENDATIONS

We recommend that Highmark:

   •   recover $1,915,825 in excess Medicare GME reimbursement paid to 50 hospitals in MAC
       Jurisdiction 12,

   •   adjust the direct and indirect FTE counts claimed on the Medicare cost reports covering
       FYs 2006 and 2007 for each of the hospitals that did not always claim Medicare GME
       reimbursement in accordance with Federal requirements,

   •   consider developing procedures to ensure that no resident is counted as more than one
       FTE in the calculation of Medicare GME payments, and

   •   consider identifying and recovering any additional overpayments made to hospitals in
       MAC Jurisdiction 12 for residents whose FTE count exceeded one on Medicare cost
       reports submitted after FY 2007.

HIGHMARK MEDICARE SERVICES, INC., COMMENTS

In written comments on our draft report, Highmark generally concurred with our first and second
recommendations, partially concurred with our fourth recommendation, and disagreed with our
third recommendation. Specifically, Highmark agreed with the FTE overstatements and excess
Medicare GME reimbursement identified. However, Highmark agreed to adjust only the FTE
counts on 117 cost reports (out of a total of 152 cost reports with errors) and recover $1,814,426
in excess Medicare GME reimbursement. Highmark stated that it will not reopen 35 settled cost
reports (with excess reimbursement totaling $101,399) because the overpayment amounts do not
meet Highmark’s materiality thresholds for reopening settled cost reports. Highmark cited a
portion of section 2931.2 of CMS’s Provider Reimbursement Manual – Part 1 (CMS Publication
15-1) that addresses reopening cost reports based upon new and material evidence and stated that
CMS allows contractors to establish their own reopening thresholds to determine if a potential
reopening is considered material.

Highmark stated that it partially concurred with our fourth recommendation. Highmark
indicated that it would continue to follow instructions contained in the MAC Jurisdiction 12
statement of work and make FTE adjustments based on the review of rotation schedules prepared
by the hospitals. However, Highmark will not change its procedures or expand review efforts
unless CMS issues a contract modification and/or technical direction letter. Similarly, Highmark
disagreed with our third recommendation because there is no requirement for reviewing IRIS
data in the MAC Jurisdiction 12 statement of work and CMS provides no funding to perform
additional reviews of FTEs “outside the contracted desk review and audit programs.”

Highmark’s comments appear in their entirety as the Appendix.




                                                5
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Highmark’s comments, we maintain that our findings and recommendations are
valid. We have revised our report and first recommendation to reflect that, of the 66 hospitals
with overstated FTEs, the overstatements for 50 of those hospitals had an effect on Medicare
GME reimbursement.

The excess Medicare GME reimbursement amounts that we identified, including the $101,399
for 35 cost reports that Highmark has refused to reopen, are based upon FTE overstatements that
are inconsistent with Federal regulations. Therefore, we maintain that Highmark should adjust
the direct and indirect FTE counts claimed on all of the 152 cost reports and recover any excess
Medicare reimbursement. CMS’s Provider Reimbursement Manual – Part 1 (CMS Publication
15-1) Section 2931.2 states:

         Reopening Final Determination.—Whether or not the intermediary will
         reopen a determination, otherwise final, will depend upon whether new
         and material evidence has been submitted, or a clear and obvious error
         was made, or the determination is found to be inconsistent with the law,
         regulations and rulings, or general instructions.

Contrary to 42 CFR §§ 412.105(f)(1)(iii)(A) and 413.78(b), which state that no individual may
be counted as more than 1 FTE in the calculation of Medicare GME payments, the cost reports
for the 66 hospitals included residents whose total FTE count exceeded 1. Because the excess
Medicare GME reimbursement amounts for 35 cost reports that Highmark will not reopen are
material and based upon FTE overstatements that are inconsistent with Federal regulations, we
recommend that Highmark reopen the 35 cost reports and recover the $101,399 in excess
Medicare GME reimbursement. In addition, Highmark’s thresholds for reopening settled cost
reports are guidelines and not Federal regulations.




                                               6
APPENDIX
                                                                                                                        Page 1 of 4


APPENDIX: HIGH MARK MEDICARE SERVICES, INC., COMMENTS 




     C/J#S                                                                                             Medicare
                                                                                                       Part A

  September 2. 2011

  Mr. James P. Edert
  RegiQnal lnspector Gene<al fer Audit Sl!fvlces
  Office of Inspector GeMI'3I- Region II
  Jacob )avit s federal Buildi ng
  26 Federal PI;lla - Room 3900
  New York, NY 10278

  RE: A-02-09-01019



  Dear Mr. Ederl:

  We received your draft report (fI-{12-09-01019) dated August 12, 2011, regarding the review of da til reported In
  the In tern and Resident In/ormation System (IR.!5) for M~icare cost reports su bmitted to Highmark Medicare
  Services, In o:. (HMS). Detailed below are the four recommenda tions contained In your rep<:>rt, and HMS' responses.

           Fir s! giG recommendatloo ; Recover $1,915,825 In exce';S Medicare GME relmbursemeBt paid to 66
           hosp itals In Jurisdiction 12.


           HM5 response: HMS concurs with the recommend~tlon wilh the fo llowing clarifications.

           1. 	 The OIG test ed 66 hospita l. wit hin Jurisdiction 12 for poten:ial overpayments related 10 resident
                FTB. Each of Ihe 66110spitals were rcvle~d for reporting ,:eriods from 200G through 2009, In total
               the OIG reviewed 264 (66 X 4) east reports. Of tile 264 cost reports subject 10 t he OIG review, 112
               we re not overpaid acco rding to the OtG's lestin~ results. Ad dit ionally, tile overpayment amounts
               Identified by the OIG were for both IME and GME re;mbu rsem('n t . A. a result t he OIG
               recommendation should be revised as follows; Recover $1,915,825 In excess Medica re IM E and GME
               reimbursement on 152 of264 cost reports tested In Jurisdiction 12.

          2. 	 Of tile 264 cost reports tested, 109 have not been fin~1 settled (i.e. The Notice o f Program
                Relm bursement- NPR has not been issued to the hospital), these cost reports are not subject to
               reopen ing threSholds and will be settled with the resident adjust ments Identified by the OIG
               rl'Qard less o f m~tcri ality. HMS is holding these cost reports from settlement based on CM 5
               instruct ions reiated to the national 551 ratios and NJ disproportionate shar e (DSH) issues. Based on
               the sclledule attaChed. 109 cost reports will be settled with an expected recovery of approxlmateJv
               $1,594,06S. HMS will process these settlements timely In accordance with CM S Inst ructions Including
               instructions related specifiC3l1y to settling SSI and NJ DSH cost reports. To date CMS has not Issued
               Instructions relating to the settlement of open rost repo rt s with SSI/DSH reimbursement.

          3. 	 Of the 264 cost repOr!<;, eight cost reports (that were not held open due to the SSI/DSH noted above).
               have been final settled and the OIG overpayment amount exceeds the HMS' reopening thresholds.
               These COst reports will be reopened and adjusted for the DIG recommen dation. The eight cost
               repo ........ that will be reopened total $220,361 of the total OIG overpayment.




                                            <fTiGHMARK.
                                               MEDIL\RF SfRVI("fS
                                                      ,",
                                                     o~,            "
                                                           I,   "
                                                           .~
                                                       ~
                                                                                                             Page2of4




 4. 	 Dfthe 264 cost reports, 35 (OS\ r@portS(thatweftno theldopen due to th e SSI/DSH I"IOte!l ~blM!l,
     have been flna! settled. For these COS! reports the OIG over payment amount does not meet HMS'
     reQpenll'l8 thresholds (materiality levels) and will not be adjusted for the OIG recommendatloll. The
     35 COSt reportS that will not be reopened total 510l,399 Ollhc total OIG OVl!I"payment. eMS
     Publiutlon 15-1, Secticn 2931.2, stalH "Whethef 0< not the intermediary will reopen ~
     del1!rmlnalicn, otherwise final, will depend upon WMIIM1r new and malefia! evidence I'Ias been
     submitted••.• CMS allows contrOictors to establIsh their own reopening thresholds to determine If a
     potentia l reopeniOI is considered material. HMS hils defined material reopening evidence as
     follows:

     HOSQltals SNEs aDd SQa¢ altles: 

     TOlal Med icare Reimbursement              Reimbursement ImDact of (goaeninll 

     $5,000,000 and over                              At least $10,000 

     $1,000,000 to $4,999,999                         At !.east $5,000 

     $SCO,OOO to $;099,999                            Al least $3,500 

     U to $499999                                     At least $7SO 


     As an example, i hospital with S5;OOO,OOO ind over In tOlal Medicare reimbursement for i co51
     repon period would ~ave 10 have 11 rl!Qpenlng thallmpacu Medicare reimbursement by at least
     $10,000. In this example, any pOlentlal reopening under $10,000 would no t meet HMS' thresheld fer




                                                               -
     rl'Oj)ening, IMrefere, no reopening would be processed.

$\lmmary iSee ill.xned schedule for detills):
                                                                                          Con Reports
OIG Re-commendatlon                                           Sl.91S,!2S                    152

HMS e)(FJecled impa!;l - open settlements                     $1,594,065
HMS expe!;led Impact - reopenings (above tn f1!shold)         S 220361
Tetal HMS expected Impact/,o llectlens                        Sl,S14,426
Reope.nings below HMS Ihreshold (will not be processcd)       $ 101.399
Totals agree with OIG recommendation
Cost repom that had no overpayments per Ihe OIG
Total of all c~t reports reviewed
                                                              $1,915,82$
                                                                           ,
                                                              ~J2 15   825

Second OIG recommmdation: Adjust t~e dirKt ant! Indirect FTE counts daimed on the Medlare cost
repons coverlns FVs 2006 and 2D071of eath of the 66 hospi tals that did not always claim Medicare GME
reimbursement in accordance with Federal reClulrements.

HMS respon se: HMS concurs with the recommefldatlon with the followlns darifications.

The H.'VIS response alwn for the first OIG recommendation applies also to this second OIG
recomm~datlon. For all yean (2006 - 2(09 ), HMS will adjust the rn counts for 117 cost f1!9(lrts with an
expected recovery of Sl,81 4,426.

Third OIG recommendation; Consider deve loplns procedures to ensure that no resident is coun ted as
more than one FTS In the calculation of Medicare GME payments.
                                                                                                                        Page 3 of 4




         HM S response: HMS does not COrlellr with this re<:ommendatioo.

         We appreciate the OIG statement on page ii oflhe draft report which states: "The o~erstaled FTE count5
         and e~(ess reimbursement occurred because there was no Federal requirement 1m Highmark 10 review
         IRIS data that hospitals in MAC Jurisdiction 12 submitted to deted whether it resident hOld overlapping
         rOlational assignments at more than one hospital." HMS as a M('dicare Administrative Con tractor (MAC)
         follows eMS instructions as contained in the J12 contracted Statement ofWor~ (SOw),

         Further, the J12 SOW item C.S.11.3.3.11 states; "The Contractor shallimplemenl and notify providers that
         train (1!$idents in approved graduale medical education (GMEl programs of alilnlern and Re5iden t
         Information System (IRIS) updates In accordance with CMS in structions pro~ide<l in periodic change
         requests (Cfts).w Again, there is no requirement in the J12 SOW and CMS provides no funding for HMS to
         perform additional FTE reviews outside the contracted desk review and audit programs .

         HMS will continue to review FTEs in accordance with CMS expectations and instructions but wi ll not
         change our procedures or expand our review efforts unle.s CMS i>sues a con tract modificat1on and or
         technical dire<;tion letter from t he CMS·Contr acting Officer's Technical Rt'presenlative (COTR) .

         Eounh giG resommendal ion; Consider identifying and recover ing any additional overpayments made to
         hospitals in MAC Jurisdiction 12 for reSidents whose FTE count exceeded one on Medicare COS! reports
         submitted after FY 20C)].

         HMS re}pon8" HMS partially concurs with thiS recommendation.

         HMS is con tracted by CMS 10 follow the Instructions contained In the l12 Statement of Wor k (SOW). HMS
         testing of FTfs is based on the rev1ew of r otat ion schedules as prepared by the hospitals (not IRIS data).
         During the testing of rotation schedu les, we do identify duplicates and other issues that require us to
         adjust th e m counts. When we identify an issue, we wi ll continue to fol low CMS instructions and make
         FT. adjustments as contracted, but will not change or expand our review efforts unless CM S issues a
         contract modi ficat ion and or technica l direction letter from the CMS·COTR.

II you h~ve ~ny questions or comments concerning this response, please contact m e at 443-886·2808 or through
email ata dJm.weber@highmijrkmedicJreservices.com.

Sincerely,




Adam Weber
Director, Provider Audit
Highmark Med icare Services, Inc_
                                                                                                    Page 4 of 4




                                   -----..- - ..
                                     - ......, _ _ ...c - ­
                                                              ­




                                                                    .-••
---,.;--_.
c.._ ............ , . , _.... _

                           .....   __ -­
c.. _ _, . ; _ ._ _ _ _.. _ ........                    'U"~"
                                                                      ~




                                                                      ".
                                                         ...,....
                                                                                               -­
                                 ..... _
c.._ ..... _ _"'.,. ..,.;                                              "
                                                              •       '"
                                                                      ... ...   -~ . -   ...
